Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 QUESTIONABLE BILLING FOR
        MEDICARE
 ELECTRODIAGNOSTIC TESTS




                    Daniel R. Levinson
                     Inspector General

                       April 2014
                     OEI-04-12-00420
EXECUTIVE SUMMARY: Questionable Billing for Medicare
Electrodiagnostic Tests
OEI-04-12-00420

WHY WE DID THIS STUDY

In 2011, Medicare paid approximately $486 million to 21,700 physicians who billed for
electrodiagnostic tests for 877,000 beneficiaries. Electrodiagnostic tests are used to
evaluate patients who may have nerve damage. Recent investigations have found that
electrodiagnostic testing is an area vulnerable to fraud, waste, and abuse. For example, in
2011, following work by the Medicare Fraud Strike Force, a group of physicians was
charged with fraudulently billing Medicare $113 million for false claims, including
claims for electrodiagnostic tests. The Centers for Medicare & Medicaid Services (CMS)
issues comparative billing reports to providers for a variety of services, including
electrodiagnostic testing. Such reports are intended to proactively educate providers and
to help them identify and correct errors in their billing.

HOW WE DID THIS STUDY

We developed seven measures of questionable billing on the basis of past Office of
Inspector General work and input from CMS staff. We analyzed Medicare 2011
electrodiagnostic test claims to identify physicians who had unusually high billing for at
least one of these measures. We also determined whether physicians with questionable
billing for electrodiagnostic tests received comparative billing reports in 2011 for such
tests. Finally, we identified the geographical areas with the highest amounts of
questionable billing.

WHAT WE FOUND

In 2011, 4,901 physicians had questionable billing for Medicare electrodiagnostic tests
totaling $139 million. Additionally, we found that approximately 20 percent of these
physicians received comparative billing reports in 2011 on the basis of their 2010 billing
for electrodiagnostic tests. Finally, physicians in the New York, Los Angeles, and
Houston areas had the highest total questionable billing for Medicare electrodiagnostic
tests in 2011.

WHAT WE RECOMMEND

We recommend that CMS (1) increase its monitoring of billing for electrodiagnostic
tests, (2) provide additional guidance and education to physicians regarding
electrodiagnostic tests, and (3) take appropriate action regarding physicians whom we
identified as having inappropriate or questionable billing. CMS partially concurred with
our first two recommendations and concurred with the third one.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings......................................................................................................11

           In 2011, 4,901 physicians had questionable billing for Medicare
           electrodiagnostic tests totaling $139 million .................................11

           Thirty-eight percent of physicians with questionable billing for 

           electrodiagnostic tests were in 10 metropolitan areas....................17 

Conclusion and Recommendations ............................................................19 

           Agency Comments and Office of Inspector General Response.....21 

Appendixes ................................................................................................22 

           A: Number and Percentage of Medicare Physicians With 

           Questionable Billing for Electrodiagnostic Tests in Each 

           Specialty, 2011 ...............................................................................22 

           B: Number and Percentage of Medicare Physicians Who 

           Exceeded Thresholds of Questionable Billing for 

           Electrodiagnostic Tests by Specialty Group, 2011 ........................24 

           C: Physicians With Unusually High Billing by Each Measure of

           Questionable Billing, 2011 ............................................................25 

           D: Metropolitan Areas With the Highest Number of Physicians 

           With Questionable Billing by Specialty Group, 2011 ...................27 

           E: Geographical Areas of Physicians With Three Measures of 

           Questionable Billing, 2011 ............................................................28 

           F: Geographical Areas of Top 10 Physicians With Questionable 

           Billing, 2011...................................................................................30 

           G: Agency Comments ...................................................................31 

Acknowledgments.......................................................................................35

                 OBJECTIVES
                 To determine the extent to which:
                 1.	 physicians exhibited questionable billing for electrodiagnostic tests in
                     2011, and
                 2.	 questionable billing by physicians varied by geographical location.

                 BACKGROUND
                 Recent investigations have found that electrodiagnostic testing is an area
                 vulnerable to fraud, waste, and abuse. For example, in 2011, the Medicare
                 Fraud Strike Force charged a group of physicians in two cities with
                 fraudulently billing Medicare $113 million for false claims, including
                 claims for electrodiagnostic tests.1 Further, the growth of Medicare
                 spending on electrodiagnostic testing has outpaced the growth in overall
                 Medicare spending in recent years. From 2002 to 2011, spending for
                 electrodiagnostic testing under Medicare Part B increased 74 percent, from
                 $279 million to $486 million.2 In comparison, during the same timeframe,
                 overall Medicare spending for Part B items and services increased
                 50 percent.3
                 Overview of Electrodiagnostic Tests
                 Electrodiagnostic tests are used to evaluate patients who may have nerve
                 damage. These specialized tests measure the electrical activity of the
                 muscles and nerves and detect abnormalities of the peripheral nervous
                 system (i.e., nerves outside the brain and spinal cord).
                 Several conditions, including diabetes and carpal tunnel syndrome, can
                 cause peripheral nerve damage. Two common electrodiagnostic tests to




                 1
                   The Detroit, MI, cases involve $23 million in false Medicare claims for home health
                 care, nerve conduction tests, psychotherapy, physical therapy and podiatry. The
                 Brooklyn, NY, cases involve $90 million in false Medicare billings for physical therapy,
                 proctology services and nerve conduction tests. Department of Justice, Medicare Fraud
                 Strike Force Charges 111 Individuals for More Than $225 Million in False Billing and
                 Expands Operations to Two Additional Cities. Accessed at
                 http://www.justice.gov/opa/pr/2011/February/11-ag-202.html on June 8, 2012.
                 2
                   In 2011, Medicare spending on electrodiagnostic tests represented approximately
                 0.4 percent ($486 million of $126 billion) of all Medicare Part B spending. Health and
                 Human Services (HHS) Office of Inspector General (OIG) analysis of 2002 and 2011
                 Part B Analytics Reports (PBAR) National Procedure Summary File.
                 3
                   Ibid.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            1
                 assess nerve damage are nerve conduction tests (NCT) and needle
                 electromyography tests (EMG).4
                 NCTs. NCTs are noninvasive procedures used to evaluate muscle or nerve
                 damage. Standard NCTs include a stimulus that delivers a small electrical
                 current to the patient’s skin near the nerves being tested, causing the
                 nerves to respond. The electrical signals produced by nerves and muscles
                 are typically recorded and interpreted by a physician specifically trained in
                 electrodiagnostic medicine. Results from NCTs provide information about
                 the speed, size, and shape of the nerve in response to an electrical
                 stimulus. Physicians typically test many different motor and sensory
                 nerves to determine the presence of nerve damage.
                 Needle EMGs. Needle EMGs are invasive procedures that provide
                 information about the function of the muscles and nerves in the body.
                 Depending on the patient’s symptoms, a needle is inserted into muscles in
                 the arm, leg, neck, or back. For example, patients with lower back pain
                 may experience nerve pain from herniated discs. In this case, a needle
                 EMG can evaluate the severity of the nerve damage caused by disc
                 herniations. Results from needle EMGs provide information about the
                 integrity of the connection between a nerve and its muscle as well as the
                 integrity of the muscle itself. Typically, physicians trained specifically in
                 electrodiagnostic medicine perform and interpret the results from the
                 needle EMG.
                 Typically, physicians perform NCTs along with needle EMGs to detect,
                 measure and confirm the extent of nerve damage.5,6 When performed
                 together, these tests can determine the source of nerve pain and damage
                 and whether such pain is related to peripheral nerve disease. However,
                 when physicians use NCTs without integrating needle EMG findings, the
                 results may be misleading, potentially causing important diagnoses to be
                 missed.7



                 4
                   American Association of Neuromuscular & Electrodiagnostic Medicine (AANEM),
                 Model Policy for Needle Electromyography and Nerve Conduction Studies,
                 December 2011. Accessed at http://www.aanem.org/getmedia/4258c924-358e-42ce-
                 a64e-1c6a935f2e2e/Model_Policy_NCS_EMG_12312011.pdf.aspx on June 7, 2012.
                 5
                   AANEM, Proper Performance and Interpretation of Electrodiagnostic Studies,
                 January 2006. Accessed at http://www.aanem.org/getmedia/9b4fa3d5-c127-4c3d-9296-
                 b650e443b2cc/ProperPerformance.pdf.aspx on July 2, 2012.
                 6
                   Needle EMGs are optional when diagnosing carpal tunnel syndrome. American
                 Association of Electrodiagnostic Medicine (now AANEM), Practice Parameter for
                 Electrodiagnostic Studies in Carpal Tunnel Syndrome: Summary Statement, June 2002.
                 Accessed at http://www.aanem.org/getmedia/7ddc9ef9-ee91-4b48-9c1a-53454313001e/
                 CTS.pdf.aspx on December 23, 2013.
                 7
                   Ibid.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                       2
                 Medicare Payment for Electrodiagnostic Tests
                 Medicare Part B pays for electrodiagnostic tests that are medically
                 reasonable and necessary, and performed by physicians or by licensed,
                 certified nonphysician personnel under appropriate physician
                 supervision.8, 9 Further, Medicare requires that diagnostic tests, including
                 electrodiagnostic tests, be ordered by a physician or other qualified
                 nonphysician practitioner who treats a Medicare patient for a specific
                 medical problem and who uses the results of those tests to manage the
                 patient’s medical condition.10
                 The Medicare fee schedule for physicians sets payment rates for
                 electrodiagnostic tests on the basis of the location where the physician
                 performed the service.11 In 2011, Medicare’s payment amounts for NCTs
                 ranged from $46 to $84 and its payment amounts for needle EMGs ranged
                 from $57 to $174.
                 Medicare Claims Processing and Program Safeguards
                 The Centers for Medicare & Medicaid Services (CMS) uses local
                 contractors, known as Medicare Administrative Contractors (MAC) to
                 manage payments for Part B services. CMS and its contractors develop
                 guidance and implement program safeguards to ensure the integrity of
                 these services. For example, MACs can develop local coverage
                 determinations (LCDs) that establish billing and coding guidelines in their
                 coverage areas when there is no National Coverage Determination (NCD)
                 or when there is a need to further define an NCD. To illustrate, MACs can
                 establish LCDs that set utilization limits or clinical requirements for
                 specific types of electrodiagnostic test claims in their coverage areas.
                 These coverage rules can vary across MAC jurisdictions.12
                 Additionally, LCDs inform physicians as to the correct use of modifiers
                 and diagnoses on a claim. For example, some LCDs state that modifier 59
                 should be added to a claim if the physician is conducting needle EMG



                 8
                   Social Security Act § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A). 

                 9
                   Medicare does not pay for electrodiagnostic services performed by chiropractors.

                 42 CFR § 410.21(b)(2); CMS, Medicare Benefits Policy Manual, Pub. No. 100-02, 

                 ch. 15, § 30.5.

                 10
                    42 CFR § 410.32. 

                 11
                    Social Security Act § 1848, 42 U.S.C. 1395w-4. The Medicare physician fee schedule 

                 is derived using a resource-based relative value scale, which includes three resource 

                 components: (1) total physician work, (2) practice expenses, and (3) malpractice 

                 expenses. These payment rates are based on relative value units, adjusted for geography, 

                 and multiplied by a national conversion factor to derive dollar amounts. 

                 12
                    CMS, A/B MAC Jurisdictions. Accessed at http://www.cms.gov/Medicare/Medicare-
                 Contracting/MedicareContractingReform/PartAandPartBMACJurisdictions.html on 

                 June 22, 2012. All 12 A/B MAC jurisdictions were operational as of September 2013. 


Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            3
                 testing on more than one limb during the same day.13 Further, since
                 physician exams are typically performed with electrodiagnostic tests,
                 some LCDs state that modifier 25 should be added to a claim if a separate,
                 identifiable physician visit is billed by the same physician on the same
                 day.
                 CMS also uses what it calls “medically unlikely edits” (MUEs) to reduce
                 the paid-claims error rate for Part B claims. For example, an MUE may
                 establish the maximum units of service for which a physician can bill
                 under most circumstances for a single patient on the same day.14 In 2011,
                 CMS had an MUE stating that the maximum “units of service” (in this
                 case, the maximum number of tests) for a single NCT (procedure code
                 95905) were two tests for a patient on the same day.15, 16
                 Further, MACs may adopt practice guidelines developed by medical
                 organizations to determine whether Medicare will cover an
                 electrodiagnostic service. For example, several MACs have adopted
                 AANEM guidelines stating that a needle EMG should be performed by a
                 physician with special training in electrodiagnostic medicine, usually a
                 physiatrist or neurologist.17 Physiatrists and neurologists receive formal

                 13
                    Modifiers 25 and 59 are used to identify procedures that are typically not separately
                 payable to make them eligible for separate payment. Under certain circumstances, it may
                 be appropriate for these procedures to be paid for separately. For example, modifier 25 is
                 used to indicate that a distinct evaluation and management (E/M) service was performed
                 by the same physician on the same day as an NCT or needle EMG. Modifier 59 is used to
                 indicate that a distinct, non-E/M service was performed by the same physician on the
                 same day as an NCT or needle EMG at a different session, at a different anatomical site,
                 or on a different organ system.
                 14
                    An edit is an automated system process to ensure proper payment of claims. An MUE
                 flags claims for services or combinations of services that are unlikely to be medically
                 appropriate. CMS, Medically Unlikely Edits. Accessed at http://www.cms.gov/
                 Medicare/Coding/NationalCorrectCodInitEd/MUE.html on June 20, 2012.
                 15
                    Not all procedure codes have an MUE. Units of service for procedure code 95905 are
                 based on each extremity (i.e., limb) tested, whereas units of service for other NCT codes
                 (e.g., 95900) are based on each nerve tested. AANEM has recommendations for the
                 maximum number of electrodiagnostic tests considered reasonable to diagnose a patient’s
                 condition. In 2012, CMS worked with professional associations, including AANEM, to
                 allow physicians to use revised CPT codes on claims that indicate the number of
                 electrodiagnostic tests that were performed. However, CMS did not implement any edits
                 to enforce AANEM recommendations about the number of tests.
                 16
                    The five character codes and descriptions included in this report are obtained
                 from Current Procedural Terminology (CPT®), copyright 2012 by the American
                 Medical Association (AMA). CPT is developed by the AMA as a listing of
                 descriptive terms and five character identifying codes and modifiers for reporting
                 medical services and procedures. Any use of CPT outside of this design should refer
                 to the most current version of the Current Procedural Terminology available from
                 AMA. Applicable FARS/DFARS apply.
                 17
                    AANEM, Who is Qualified to Practice Electrodiagnostic Medicine? May 1999.
                 Accessed at http://www.aanem.org/getmedia/f96400ac-6534-4f9f-bddc-21231e241e0c/
                 who_is_qualified.PDF.aspx on June 6, 2012.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                             4
                 training in the diagnosis and treatment of neuromuscular diseases, and
                 they are trained in the administration and interpretation of
                 electrodiagnostic tests. Providers who are generally not considered to
                 have special training in nerve disorders include primary care physicians,
                 internists, chiropractors, orthopedists, podiatrists, and dermatologists.18, 19
                 Additionally, CMS produces comparative billing reports (CBRs) for
                 Part B items and services to help physicians prevent future improper
                 billings and payments.20 These reports compare physicians’ billing and
                 payment patterns to those of their peers in their respective States and
                 across the Nation.21 As of November 2013, CMS’s contractor had issued
                 initial CBRs on eight topics, including electrodiagnostic testing. The
                 contractor had also issued followup CBRs on four of those eight topics,
                 but it had not issued one on electrodiagnostic testing. The purpose of a
                 followup CBR is to present comparisons to the providers who received the
                 initial CBR; the followup CBR uses more recent data. In the CBR for
                 electrodiagnostic testing, the measures of analysis were (1) the average
                 number of services paid per beneficiary for NCTs and needle EMGs,
                 (2) the amount paid to the provider for NCTs and needle EMGs, and
                 (3) the percentage of NCTs paid for without a needle EMG on the same
                 claim.
                 Related Office of Inspector General Work
                 This is OIG’s first evaluation on electrodiagnostic tests. However,
                 previous OIG work has documented growth in other types of diagnostic
                 imaging tests covered under Medicare Part B and has raised concerns
                 about the appropriateness of those services.22, 23 For example, OIG

                 18
                    AANEM, Model Policy for Needle Electromyography and Nerve Conduction Studies,
                 December 2011. AANEM policy states that nonphysicians, such as physical therapists,
                 chiropractors, and physician assistants, do not have appropriate training and knowledge
                 to perform and interpret NCTs and needle EMGs, although they may perform NCTs
                 under direct physician supervision.
                 19
                    The American Board of Electrodiagnostic Medicine (ABEM), an independent
                 credentialing body established by AANEM, administers an annual examination to
                 evaluate the specialized knowledge and abilities of technologists trained in NCTs.
                 AANEM, AANEM News. Accessed at http://www.aanem.org/getmedia/9970eb4f-fd3b-
                 4fff-961f-963b238390be/16.pdf.aspx on July 3, 2012.
                 20
                    Safeguard Services, LLC, CBR011–020 Frequently Asked Questions. Accessed at
                 http://www.safeguard-servicesllc.com/cbr/faqs2.asp#cbr011 on June 5, 2012. CMS,
                 through Safeguard Services, issued a comparative billing report for electrodiagnostic tests
                 in December 2011 to a sample of 4,241 physicians. The sample typically excludes
                 neurologists, physiatrists, and independent diagnostic testing facilities. The results of
                 physicians’ CBRs are not publicly available.
                 21
                    Safeguard Services, LLC, Comparative Billing Report Services Overview. Accessed at
                 http://www.safeguard-servicesllc.com/cbr/default.asp on June 5, 2012.

                 22
                    OIG, Growth in Advanced Imaging Paid Under the Medicare Physician Fee Schedule,

                 OEI-01-06-00260. October 2007. 

                 23
                    OIG, Medicare Part B Billing for Ultrasound, OEI-01-08-00100. July 2009.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                              5
                 identified 20 counties that accounted for $336 million in questionable
                 billing on ultrasound services in 2007. CMS concurred with OIG’s
                 recommendation for it to monitor ultrasound claims data to detect
                 questionable billing and take action when physicians bill for high numbers
                 of questionable claims for ultrasound services.
                 Additionally, OIG determined the extent to which use of modifier 25 (i.e.,
                 billing for a significant, separately identifiable evaluation and
                 management (E/M) service by the same physician on the same day as
                 another procedure) met Medicare program requirements in 2002.24 Of the
                 450 claims with modifier 25 selected for medical review, 35 percent did
                 not meet program requirements.
                 Further, OIG determined whether providers used modifier 59 (i.e., billing
                 for a significant, separately identifiable non-E/M service by the same
                 physician on the same day as another procedure) inappropriately during
                 fiscal year 2003.25 Of the 350 claims with modifier 59 selected for
                 medical review, 40 percent did not meet program requirements. CMS
                 concurred with OIG’s recommendations for it to work with its contractors
                 to reduce the number of claims submitted using modifiers 25 and 59 that
                 do not meet program requirements.

                 METHODOLOGY
                 Data Collection and Analysis
                 We analyzed 2011 electrodiagnostic claims from 100-percent paid claims
                 from CMS’s National Claims History (NCH) Carrier File. We analyzed
                 approximately 3 million claims for NCTs and needle EMGs billed by
                 21,663 physicians in 2011. We also analyzed all of these physicians’
                 2011 Part B claims from CMS’s NCH Carrier File.
                 Identification of Physicians With Questionable Billing
                 We developed seven measures of questionable billing on the basis of past
                 OIG work and fraud investigations related to electrodiagnostic tests, as
                 well as input from CMS staff and AANEM.26 We considered a physician’s
                 billing to be unusually high, or questionable, on each of the seven
                 measures if it was greater than the 75th percentile plus 1.5 times the


                 24
                    For example, see OIG, Use of Modifier 25, OEI-07-03-00470. November 2005.
                 25
                    For example, see OIG, Use of Modifier 59 to Bypass National Correct Coding
                 Initiative Edits, OEI-03-02-00771. November 2005.
                 26
                    We also analyzed electrodiagnostic test payments that were made inappropriately to
                 211 physicians because on the corresponding claims, the physicians did not list diagnosis
                 codes that covered electrodiagnostic services. These claims totaled $92,464 (or
                 0.02 percent) of the total Medicare-allowed amounts for electrodiagnostic tests in 2011.
                 We will refer these physicians to CMS for appropriate action.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            6
                 interquartile range.27 Although some of this billing may be legitimate,
                 physicians who have an unusually high amount of questionable billing
                 warrant further scrutiny.
                 We classified physicians into two groups on the basis of their specialty to
                 ensure that physicians’ billing was compared to that of their peers. That is
                 to say, we accounted for individuals who have special training in
                 electrodiagnostic medicine, and therefore may see more patients who
                 require electrodiagnostic testing, and may bill for more of these tests. One
                 group consisted of neurologists and physiatrists, and the second group
                 consisted of the remaining physicians in other specialties.28 In 2011,
                 Medicare paid $373 million to 11,292 neurologists and physiatrists for
                 electrodiagnostic tests. Additionally, in 2011, Medicare paid
                 approximately $113 million to 10,371 physicians in other specialties for
                 electrodiagnostic tests.
                 For each measure of questionable billing, we included physicians whom
                 Medicare paid for five or more electrodiagnostic tests.29 We also
                 calculated the Medicare payment for each physician’s claim that was
                 associated with questionable billing. The seven measures of questionable
                 billing we developed were:
                 Physicians with an unusually high percentage of electrodiagnostic test
                 claims using modifier 59. For each physician, we determined the
                 percentage of electrodiagnostic test claims that had modifier 59. This
                 modifier is used to bill for a significant, separately identifiable non-E/M
                 service by the same physician on the same day as another procedure.
                 However, payments for both services are appropriate only under certain
                 circumstances. Past OIG studies have found that some physicians and
                 providers used this modifier to increase payments inappropriately.30
                 Physicians with an unusually high percentage of electrodiagnostic test
                 claims using modifier 25. For each physician, we determined the
                 percentage of electrodiagnostic test claims that had modifier 25. This

                 27
                    This is a standard exploratory method for identifying members of a population with
                 unusually high values on a given statistic compared to the rest of the population when no
                 established benchmarks exist. For each measure of questionable billing, this method was
                 used to establish separate thresholds for the two groups of physicians. See J. W. Tukey,
                 Exploratory Data Analysis, Addison-Wesley, 1977.
                 28
                    Chiropractors were analyzed separately to determine inappropriate billing, and we
                 found that none received payment for electrodiagnostic tests in 2011.
                 29
                    A total of 280 physicians with questionable billing billed for fewer than
                 5 electrodiagnostic tests in 2011. These physicians represented 5.35 percent of
                 physicians with questionable billing and approximately $39,590 (or .008 percent) of the
                 total Medicare-allowed amounts for electrodiagnostic tests in 2011.
                 30
                    For example, see OIG, Use of Modifier 59 to Bypass National Correct Coding
                 Initiative Edits, OEI-03-02-00771. November 2005.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            7
                 modifier is used to bill for a significant, separately identifiable E/M
                 service by the same physician on the same day as another procedure.
                 However, payments for both services are appropriate only under certain
                 circumstances. Past OIG studies have found that some physicians and
                 providers used this modifier to increase payments inappropriately.31
                 Physicians with an unusually high percentage of electrodiagnostic test
                 claims. For each physician who was not a neurologist or physiatrist, we
                 determined the percentage of electrodiagnostic test claims compared to all
                 of their other Part B items and service claims. High billing of
                 electrodiagnostic tests by physicians in specialties other than neurology
                 and physiatry is questionable because they may be overutilizing these tests
                 to evaluate beneficiaries or billing for services that were never performed.
                 Physicians with an unusually high percentage of electrodiagnostic test
                 claims that did not include both an NCT and a needle EMG test. For each
                 physician, we determined the percentage of electrodiagnostic test claims
                 that did not have both an NCT and a needle EMG on the same claim (i.e.,
                 claims that included one but not the other). High billing of
                 electrodiagnostic tests with such claims is questionable because these two
                 tests are typically performed together.32 However, according to AANEM,
                 needle EMGs are optional when diagnosing carpal tunnel syndrome.33
                 Therefore, we did not count a physician’s claims for an NCT performed
                 without a needle EMG as questionable when the diagnosis code on the
                 claim was carpal tunnel syndrome (i.e., International Classification of
                 Disease Coding (ICD) 354.0).
                 Physicians with an unusually high average number of miles between the
                 physicians’ and beneficiaries’ locations. For each physician, we
                 determined the average number of miles between the physician’s practice
                 location and beneficiaries’ mailing addresses. Physicians with an
                 unusually high average number of miles between the two are questionable
                 because they may be billing for services that were not medically necessary
                 or were never performed.
                 Physicians with an unusually high percentage of beneficiaries for whom at
                 least three physicians billed Medicare for electrodiagnostic tests. For
                 each physician, we determined the percentage of beneficiaries for whom at

                 31
                    For example, see OIG, Use of Modifier 25, OEI-07-03-00470. November 2005.
                 32
                    AANEM, Proper Performance and Interpretation of Electrodiagnostic Studies,
                 January 2006. Accessed at http://www.aanem.org/getmedia/9b4fa3d5-c127-4c3d-9296-
                 b650e443b2cc/ProperPerformance.pdf.aspx on July 2, 2012.
                 33
                    AANEM, Practice Parameter for Electrodiagnostic Studies in Carpal Tunnel
                 Syndrome: Summary Statement, June 2002. Accessed at
                 http://www.aanem.org/getmedia/7ddc9ef9-ee91-4b48-9c1a-53454313001e/CTS.pdf.aspx
                 on December 23, 2013.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                    8
                 least three physicians billed Medicare for electrodiagnostic tests in 2011.34
                 When multiple physicians bill for services provided to the same
                 beneficiary in a given period, there is potential for fraud (i.e.,
                 beneficiary-sharing).
                 Physicians with an unusually high average number of electrodiagnostic
                 test claims for the same beneficiary on the same day. For each physician,
                 we determined the average number of electrodiagnostic test claims
                 submitted for the same beneficiary on the same day in 2011.35 A high
                 number of electrodiagnostic claims for the same beneficiary on the same
                 day by the same physician is questionable because the physician may be
                 overutilizing electrodiagnostic tests to evaluate the beneficiary on the
                 same day, or billing for services that were never performed.
                 We also determined whether physicians with questionable billing received
                 CBRs on electrodiagnostic testing in 2011. To do this, we matched the
                 National Provider Identifiers of physicians with questionable billing to
                 those of physicians who received CBRs in 2011. These CBRs were sent to
                 physicians who billed for electrodiagnostic tests in 2010 to help them
                 prevent future improper billing and payments. We calculated the total
                 number of physicians with questionable billing who received CBRs and
                 determined the payments for questionable billing for these physicians.
                 Geographical Analysis of Physicians With Questionable Billing
                 We determined the locations of physicians with questionable billing in
                 2011. To do this, we identified each physician’s Core Base Statistical Area
                 (CBSA) on the basis of the ZIP Code listed on the physician’s claims for
                 electrodiagnostic tests.36 CBSAs may be categorized as metropolitan or
                 micropolitan. We determined the percentage of physicians in each
                 metropolitan area who had questionable billing and identified the
                 metropolitan areas with the highest concentrations of physicians with
                 questionable billing.
                 In metropolitan areas with the highest number of physicians with
                 questionable billing, we calculated the total number of physicians, the
                 percentage of physicians with questionable billing, and the Medicare

                 34
                    When a physician has an unusually high percentage of beneficiaries for whom at least
                 three physicians billed Medicare for electrodiagnostic tests, this may indicate that
                 physicians have worked together to “share” beneficiaries. Beneficiary-sharing is a
                 common fraud scheme and may involve cooperation among managers, physicians, and
                 marketers to solicit beneficiaries or beneficiary Medicare numbers.
                 35
                    We ensured that our threshold met or exceeded the highest total number of tests
                 recommended by AANEM, which was 14 tests. 

                 36
                    A CBSA is a region around an urban center that has at least 10,000 people. U.S.

                 Census Bureau, Metropolitan and Micropolitan Statistical Areas. Accessed at 

                 http://www.census.gov/population/metro/ on January 31, 2013. 


Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            9
                 payments to physicians with questionable billing in these areas.
                 Additionally, for each metropolitan area with physicians with questionable
                 billing, we identified the number of physicians with at least three measures
                 of questionable billing and the Medicare payments to these physicians.
                 Limitations
                 We did not conduct a medical record review to determine whether the
                 services we identified as being associated with questionable billing were
                 inappropriate or fraudulent. Further, these characteristics are not intended
                 to be a comprehensive set of measures for identifying questionable billing
                 for electrodiagnostic tests.
                 Standards
                 This study was conducted in accordance with the Quality Standards for
                 Inspection and Evaluation issued by the Council of the Inspectors General
                 on Integrity and Efficiency.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                10
                 FINDINGS
                 In 2011, 4,901 physicians had questionable billing for
                 Medicare electrodiagnostic tests totaling $139 million
                 A total of 4,901 physicians met or exceeded the threshold for at least one
                 measure of questionable billing, representing 23 percent of the
                 21,663 physicians who billed for electrodiagnostic services in 2011.
                 Table 1 shows the number and percentage of physicians by the number of
                 questionable billing measures for which physicians exceeded thresholds.
                 These questionable billings accounted for 31 percent ($139 million of
                 $486 million) of the Medicare payments for electrodiagnostic tests in
                 2011.
                 Of the physicians with questionable billing, 49 percent (2,387 of 4,901)
                 were neurologists and physiatrists who, have special training in
                 electrodiagnostic medicine, and therefore may see more patients who
                 require electrodiagnostic testing, and may bill for more of these tests. The
                 remaining 51 percent (2,514 of 4,901) were physicians in other specialties.
                 Physicians with questionable billing in other specialties largely
                 represented internal medicine, family practice, orthopedic surgery, and
                 podiatry (i.e., recognized by AANEM as specialties that are generally not
                 considered to have expertise in electrodiagnostic medicine). Appendix A
                 shows the number and percentage of physicians with questionable billing
                 in each specialty.
                 Overall, 13 percent (644 of 4,901) of physicians with questionable billing
                 exceeded the thresholds for two or more measures of questionable billing.
                 Appendix B shows the number and percentage of physicians by the
                 number of measures of questionable billing for which physicians exceeded
                 thresholds in each specialty group (i.e., neurologists and physiatrists, and
                 physicians in other specialties).




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)               11
                     Table 1. Number and Percentage of Physicians Who Exceeded Thresholds
                     for Questionable Billing, 2011

                                  Number of Measures of
                                  Questionable Billing for
                                  Which Physicians                             Number of                 Percentage of
                                  Exceeded Thresholds                          Physicians                  Physicians


                                  0                                                  16,762                          77%
                                  1                                                    4,257                         20%
                                  2                                                      572                          3%
                                  3                                                       72                         <1%
                                  4 or more                                                 0                        <1%
                                      Total*                                         21,663                         100%
                                 *The percentage column sum does not equal total because of rounding. 

                                 Source: OIG analysis of 2011 NCH Carrier file.





                     For each measure of questionable billing, Table 2 shows the total number
                     of physicians who met or exceeded the threshold for unusually high billing
                     and the associated Medicare payments. Appendix C shows the median
                     (i.e., the value at which 50 percent of all physicians billed for that
                     measure); the threshold that indicated unusually high billing; the range of
                     unusually high billing; and the number of physicians in each specialty
                     group with unusually high billing.
                     Table 2. Physicians With Unusually High Billing by Each Measure of
                     Questionable Billing, 2011*

                                                                                                   Physicians With Unusually High
                                                                                                                           Billing



                                                                                               Total Number of
                                                                                                     Physicians
                                                                                                     Meeting or
                                                                                                     Exceeding          Total Medicare
      Measure of Questionable Billing                                                                 Threshold               Payments
      High percentage of electrodiagnostic test claims with modifiers                                     2,208              $47 million
                                                                   Modifier 59              2,156                     $46 million
                                                                   Modifier 25                 52                      $1 million
      High percentage of electrodiagnostic test claims from all billing for
      Part B items and services                                                                             1,155             $61 million
      High percentage of electrodiagnostic test claims that did not include
      both an NCT and needle EMG test                                                                         907             $19 million
      High average number of miles between physicians’ and beneficiaries’
      locations                                                                                               700             $15 million
      High percentage of beneficiaries for whom at least three physicians
      billed for electrodiagnostic tests                                                                      346             $ 3 million
      High average number of electrodiagnostic test claims for the same
      beneficiary on the same day                                                                             334             $20 million
             Total**                                                                                        4,901           $139 million
     * The medians, thresholds, and range of billing for each measure of questionable billing, by specialty group, are listed in Appendix C.

     ** The sums of the numbers do not equal the totals because some physicians had multiple measures of questionable billing.

     Source: OIG analysis of 2011 NCH Carrier File. 





Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                                             12
                 In 2011, 2,208 physicians billed for an unusually high
                 percentage of electrodiagnostic tests using modifiers
                 In 2011, 2,208 physicians billed for an unusually high percentage of
                 electrodiagnostic tests using modifiers 59 and/or 25 on their claims. These
                 claims accounted for $47 million of the 2011 payments for
                 electrodiagnostic tests. Billing for a high percentage of electrodiagnostic
                 tests using modifiers may indicate that a physician is using the modifiers
                 to increase payments inappropriately.
                 A total of 2,156 physicians billed for an unusually high percentage of
                 electrodiagnostic tests using modifier 59 (i.e., billing for a significant,
                 separately identifiable non-E/M service by the same physician on the same
                 day as another procedure). Of all these physicians, 19 percent
                 (405 of 2,156) always billed for electrodiagnostic tests using modifier 59.37
                 A total of 52 physicians billed for an unusually high percentage of
                 electrodiagnostic tests using modifier 25 (i.e., billing for a significant,
                 separately identifiable E/M service by the same physician on the same day
                 as another procedure). Of 21,663 physicians who billed for
                 electrodiagnostic tests in 2011, these 52 were the only physicians who
                 billed for electrodiagnostic tests using modifier 25.38
                 In 2011, 1,155 physicians billed for an unusually high
                 percentage of electrodiagnostic tests
                 In 2011, 1,155 physicians in specialties other than neurology or physiatry
                 billed for an unusually high percentage of electrodiagnostic tests
                 compared to all of their billing for Part B items and services. These
                 claims accounted for $61 million of the 2011 payments for
                 electrodiagnostic tests. For example, 23 physicians billed only for
                 electrodiagnostic tests and no other Part B items and services in 2011,
                 totaling $685,000.39 For physicians in specialties other than neurology and
                 physiatry, a high percentage of billing for electrodiagnostic tests may
                 indicate that the physicians are submitting claims for services that were
                 not medically necessary or were never provided to the beneficiary.



                 37
                    The three specialties with the highest numbers of physicians who always billed using
                 modifier 59 were internal medicine (89 of 405), neurology (78 of 405), and family
                 practice (61 of 405).
                 38
                    The majority of physicians who billed for electrodiagnostic test claims using
                 modifier 25 were neurologists (30 of 52) and physiatrists (17 of 52).
                 39
                    These physicians represented the following specialties: physical therapist in private
                 practice (13 of 23); independent diagnostic testing facility (5 of 23); family practice
                 (2 of 23); neurosurgery; pediatric medicine, and single or multispecialty clinic or group
                 practice.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                              13
                 In 2011, 907 physicians billed for an unusually high percentage
                 of electrodiagnostic tests that did not include both an NCT and
                 needle EMG test
                 In 2011, 907 physicians billed for an unusually high percentage of
                 electrodiagnostic tests that did not include both an NCT and a needle
                 EMG test. These claims accounted for $19 million of the 2011 payments
                 for electrodiagnostic tests. Typically, when NCTs are used alone, without
                 integrating needle EMG findings, the results may be misleading,
                 potentially causing important diagnoses to be missed.40
                 All of the physicians whom we identified as having an unusually high
                 percentage of electrodiagnostic tests that did not include both an NCT and
                 a needle EMG test were neurologists or physiatrists. None of the
                 physicians in other specialties were identified statistically as having
                 “unusually high” billing because they almost always billed for
                 electrodiagnostic tests without having both an NCT and a needle EMG test
                 on the same claim; the median for such physicians was 85 percent. These
                 physicians represented approximately $72 million in payments.41 Because
                 there was no distribution in billing for this measure of questionable billing
                 among non-neurologist and nonphysiatrist physicians, we identified no
                 physicians in this category as billing for unusually high percentages of
                 electrodiagnostic tests that did not include both an NCT and needle EMG
                 test. However, this billing pattern among non-neurologist and
                 nonphysiatrist physicians raises concerns.
                 In 2011, 700 physicians billed for electrodiagnostic tests for
                 beneficiaries from locations an unusually high average
                 number of miles away
                 In 2011, 700 physicians billed for electrodiagnostic tests for beneficiaries
                 who resided an unusually high average number of miles from the
                 physicians’ practice locations. These claims accounted for $15 million of
                 the 2011 payments for electrodiagnostic tests. For example, we found that
                 one general practitioner in Indianapolis, Indiana, billed for an
                 electrodiagnostic test for a beneficiary who resided nearly 2,000 miles
                 away, in McKinleyville, California. This physician’s 27 other beneficiaries
                 resided an average of 1,785 miles away.42
                 A high average number of miles between physicians’ and beneficiaries’
                 locations may indicate that a physician is billing for electrodiagnostic tests
                 that were not medically necessary or were never provided to the

                 40
                    NCTs performed without a needle EMG may be acceptable for some diagnoses.
                 41
                    The Tukey method requires a distribution or variability in billing to identify outliers.
                 42
                    Nearly all (26 of 28) of these beneficiaries resided in California.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                    14
                 beneficiary. Further, beneficiaries with conditions that may cause nerve
                 damage, such as diabetes or carpal tunnel syndrome, would not be
                 expected to travel such long distances for electrodiagnostic tests.
                 In 2011, 346 physicians billed for an unusually high percentage
                 of beneficiaries for whom at least three physicians also billed
                 for electrodiagnostic tests
                 In 2011, 346 physicians billed for an unusually high percentage of
                 beneficiaries for whom at least three physicians also billed for
                 electrodiagnostic tests. These claims accounted for $3 million of the
                 2011 payments for electrodiagnostic tests. 43 When multiple physicians
                 bill for the same services provided to the same beneficiary, there is
                 potential for fraud (i.e., beneficiary-sharing). For example, 100 percent of
                 the beneficiaries for 28 physicians had electrodiagnostic test claims from
                 at least 3 physicians in 2011.44
                 In 2011, for about 95 percent of beneficiaries, one physician submitted
                 claims for their electrodiagnostic tests. For about 5 percent of
                 beneficiaries, two physicians submitted claims for their electrodiagnostic
                 tests. For less than 1 percent of beneficiaries, three or more physicians
                 submitted claims for their electrodiagnostic tests. In the case of one
                 beneficiary, nine different physicians billed Medicare for this individual’s
                 electrodiagnostic tests in 2011.
                 In 2011, 334 physicians billed for an unusually high average
                 number of electrodiagnostic tests for the same beneficiary on
                 the same day
                 In 2011, 334 physicians billed for an unusually high average number of
                 electrodiagnostic tests for the same beneficiary on the same day.45 These
                 claims accounted for $20 million of the 2011 payments for
                 electrodiagnostic tests. For example, 6 physicians billed for an average of
                 32 electrodiagnostic tests for the same beneficiary on the same day, almost
                 5 times the median number of 7 electrodiagnostic tests.46 Billing for
                 multiple electrodiagnostic tests for the same beneficiary on the same day


                 43
                    Thirty providers who had an unusually high percentage of beneficiaries for whom other
                 providers billed Medicare for electrodiagnostic tests also had an unusually high average
                 number of miles between their and beneficiaries’ locations.
                 44
                    The majority of these providers had the following specialties: family practice
                 (6 of 28), internal medicine (6 of 28), and orthopedic surgery (4 of 28).
                 45
                    Sixty-seven physicians who billed for an unusually high percentage of
                 electrodiagnostic test claims using modifiers also billed for an unusually high average
                 number of electrodiagnostic test claims for the same beneficiary on the same day.
                 46
                    The six physicians represented the following specialties: family practice, internal
                 medicine, nurse practitioner, and physician assistant.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                           15
                 may indicate that a physician is billing for electrodiagnostic tests that were
                 not medically necessary or were never provided to the beneficiary.
                 Approximately 20 percent of physicians with questionable
                 billing in 2011 received a CBR on the basis of their 2010 billing
                 for electrodiagnostic tests
                 CMS issues CBRs that are designed to compare a provider’s billing and
                 payment patterns to those of his or her peers across the Nation.
                 Additionally, CBRs are intended to proactively educate providers and help
                 them identify and prevent future errors in their billing practices.
                 In late 2011, CMS and its contractors issued CBRs to 4,241 physicians
                 who billed for NCTs and needle EMGs in 2010. The CBR analysis
                 measures include some of the same analysis and measures of questionable
                 billing that we used in this report. The primary differences, however, are
                 that CMS typically excludes neurologists and physiatrists from its
                 analysis, and that its measures are not intended to identify physicians who
                 had unusually high billing.47
                 A total of 1,095 physicians who received a CBR in 2011 on the basis of
                 their 2010 billing also had questionable billing for electrodiagnostic tests
                 in 2011, totaling approximately $34 million. The remaining 78 percent
                 (3,806 of 4,901) of physicians whom we identified as having questionable
                 billing did not receive a CBR in 2011.48 Table 3 shows the number of
                 physicians with questionable billing, whether they received CBRs, and the
                 questionable Medicare payments.




                 47
                    Although CMS’s methods for creating CBRs for electrodiagnostic tests state that it
                 excludes neurologists and physiatrists, we found that 12 physicians in the neurologist and
                 physiatrist specialty group who had questionable billing received CBRs.
                 48
                    These physicians may not have billed for electrodiagnostic tests in 2010, so they would
                 not have received a CBR in 2011.

Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                             16
                  Table 3. Physicians With Questionable Billing and CBRs in Each Specialty
                  Group, 2011
                                         Number of
                                         Physicians                                  Number of
                                                With                           Physicians With
                                       Questionable                              Questionable
                                         Billing and             Medicare        Billing and no      Medicare
                                               CBRs             Payments*                 CBRs      Payments
           Physicians in Other
           Specialties                          1,083            $33 million             1,429      $37 million
           Neurologists and
           Physiatrists                            12             $786,512               2,377      $68 million
              Total                             1,095           $34 million              3,806    $105 million
           * The column sum does not equal total because of rounding.
           Source: OIG analysis of 2011 NCH Carrier File.

                  Thirty-eight percent of physicians with questionable
                  billing for electrodiagnostic tests were in
                  10 metropolitan areas
                  Certain metropolitan areas had a higher percentage of physicians with
                  questionable billing for electrodiagnostic tests than did the Nation as a
                  whole, which had 23 percent. Physicians with questionable billing for
                  electrodiagnostic tests in these 10 metropolitan areas made up 38 percent
                  (1,883 of 4,901) of all physicians with questionable billing. The
                  New York, Los Angeles, and Houston areas had the highest Medicare
                  payments associated with questionable billing. Specifically, Medicare
                  paid $27 million associated with questionable billing to 737 physicians in
                  the New York area. Medicare paid approximately $12 million associated
                  with questionable billing to 219 physicians in the Los Angeles area, and
                  approximately $6 million associated with questionable billing to
                  156 physicians in the Houston area.
                  Table 4 shows for 10 metropolitan areas the number of physicians with
                  questionable billing, the total number of physicians, the percentage of
                  physicians with questionable billing, and the Medicare payments for
                  physicians with questionable billing. Appendix D includes the number of
                  physicians with questionable billing in these metropolitan areas
                  categorized by specialty group.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                             17
                     Table 4. Metropolitan Areas With the Highest Number of Physicians With
                     Questionable Billing, 2011
                             Total Number of
                             Physicians With                                   Percentage of    Questionable
       Metropolitan            Questionable         Total Number of         Physicians With        Medicare
       Area                           Billing            Physicians      Questionable Billing     Payments

       New York, NY                        737                  2,745                   27%      $26,625,059

       Los Angeles, CA                     219                    695                   32%      $11,581,976

       Houston, TX                         156                    395                   39%       $5,983,651

       Miami, FL                           193                    566                   34%       $4,945,350

       Dallas, TX                          109                    345                   32%       $3,168,436

       Detroit, MI                          98                    483                   20%       $3,717,991

       Chicago, IL                          97                    644                   15%       $3,233,386

       Washington, DC                       96                    403                   24%       $1,995,174

       Phoenix, AZ                          91                    306                   30%       $3,091,317

       Baltimore, MD                        87                    277                   31%       $1,674,583

       Nation                            4,901                 21,663                   23%      $139 million

        Source: OIG analysis of physician data for electrodiagnostic tests, 2011.


                     Additionally, within the group of 4,901 physicians who met or exceeded
                     the threshold for at least one measure of questionable billing, 72
                     physicians met or exceeded the thresholds for three measures of
                     questionable billing. Medicare paid $4 million associated with
                     questionable billing to such physicians. The metropolitan areas with the
                     highest numbers of such physicians were Las Vegas, Nevada; New York,
                     New York; and Baltimore, Maryland; in these three areas, these physicians
                     received a total of $880,000 associated with questionable billing.
                     Appendix E lists the geographical areas of physicians who met or
                     exceeded the thresholds for three measures of questionable billing in 2011.
                     Appendix F lists the geographical areas of the top 10 physicians with
                     questionable billing in 2011.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                               18
                 CONCLUSION AND RECOMMENDATIONS
                 We found that 4,901 physicians had questionable billing for
                 electrodiagnostic tests with Medicare payments totaling $139 million in
                 2011. While there may be legitimate reasons for some of this billing, all
                 of these physicians warrant further scrutiny. The majority of these
                 physicians had an unusually high percentage of claims with modifiers,
                 which allow physicians to receive payments for services that are typically
                 not separately payable. Previous OIG studies also found that some
                 physicians and providers use modifiers to increase payments
                 inappropriately. For example, a 2005 OIG evaluation found that
                 $59 million was paid improperly for claims using modifier 59. Further,
                 many of the non-neurologist and nonphysiatrist physicians whom we
                 identified as having questionable billing had an unusually high percentage
                 of claims for electrodiagnostic tests compared to their claims for other
                 Part B items and services. Finally, physicians in the New York,
                 Los Angeles, and Houston areas had the highest total questionable billing
                 for Medicare electrodiagnostic tests in 2011.
                 Our findings further indicate vulnerabilities in the monitoring of Medicare
                 billing for electrodiagnostic tests. We found that approximately
                 20 percent of the physicians with questionable billing for electrodiagnostic
                 tests received CBRs in 2011 on the basis of their 2010 electrodiagnostic
                 test billing. Further, nearly half of the physicians whom we identified as
                 having questionable billing were neurologists and physiatrists. However,
                 CMS typically does not provide CBRs on electrodiagnostic testing to
                 neurologists and physiatrists.
                 We recommend that CMS:
                 Increase monitoring of billing for electrodiagnostic tests
                 CMS should instruct its contractors (e.g., Medicare Administrative
                 Contractors, Zone Program Integrity Contractors) to monitor the billing of
                 electrodiagnostic tests using measures of questionable billing similar to
                 those we incorporated into this study. CMS should develop thresholds for
                 these measures and instruct its contractors to conduct additional reviews of
                 physicians who exceed them. For example, CMS could use AANEM
                 recommendations for the maximum number of electrodiagnostic tests that
                 should be performed to develop edits on the number of tests billed. CMS
                 could also include these measures of questionable billing in its
                 fraud-prevention system. Finally, CMS should use comparative billing
                 reports to identify and monitor all physicians—including neurologists and
                 physiatrists—with unusually high billing for electrodiagnostic tests.



Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)               19
                 Provide additional guidance and education to physicians
                 regarding electrodiagnostic tests
                 CMS should update its guidance and provide additional education to
                 physicians who provide electrodiagnostic tests. As part of this effort,
                 CMS should educate physicians on industry guidance regarding providing
                 NCTs in conjunction with needle EMGs for establishing reliable and
                 accurate diagnoses.
                 Take appropriate action regarding physicians whom we
                 identified as having inappropriate or questionable billing
                 In a separate memorandum, we will send the claims data for physicians
                 with inappropriate or questionable billing to CMS for appropriate action.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)              20
                 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                 RESPONSE
                 CMS partially concurred with our first two recommendations and
                 concurred with the third one. With regard to the first recommendation,
                 CMS partially concurred and stated that it will evaluate the cost-
                 effectiveness of implementing new thresholds for questionable billing and
                 conducting medical record reviews of physicians who exceed them. CMS
                 also provided information about its efforts to monitor Medicare billing for
                 electrodiagnostic tests. Specifically, CMS will share this report with its
                 Recovery Auditors for possible review and overpayment recovery. CMS
                 will also consider including a model that monitors for unusually high
                 billing for electrodiagnostic tests in its Fraud Prevention System. Finally,
                 CMS will develop CBRs on electrodiagnostic testing that include
                 neurologists and physiatrists.
                 With regard to the second recommendation, CMS partially concurred and
                 stated that it established revised values for new codes that bundle needle
                 EMG and NCT codes, which has resulted in simplified coding and savings
                 to the Medicare program for these services. CMS noted that it is
                 prohibited from providing guidance on the practice of medicine to
                 physicians and, therefore, it may be a violation to emphasize the
                 importance of providing NCTs in conjunction with needle EMGs. In
                 response to CMS’s comments, we clarified this recommendation to state
                 that CMS should educate physicians on industry guidance regarding
                 performing and billing for these services together. We are not
                 recommending that CMS provide guidance on the practice of medicine to
                 physicians.
                 With regard to the third recommendation, CMS concurred and will instruct
                 the Supplemental Medical Review Contractor to review some or all of the
                 physicians identified in this report. CMS will also ask these contractors to
                 determine which of the seven questionable billing measures were the best
                 predictors of improper payments. Finally, any suspicions of potential
                 fraud will be referred to the appropriate Zone Program Integrity
                 Contractor.
                 We support CMS’s efforts to address these issues and encourage it to
                 continue making progress. For the full text of CMS’s comments, see
                 Appendix G.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                21
                 APPENDIX A
                 Number and Percentage of Medicare Physicians With
                 Questionable Billing for Electrodiagnostic Tests in Each
                 Specialty, 2011
                                                                      Number of                       Percentage of
                                                                Physicians With                     Physicians With
                                                                  Questionable        Number of       Questionable
                                                                 Billing in Each    Physicians in    Billing in Each
               Specialty                                               Specialty   Each Specialty          Specialty
               Neurology                                                   1696             7050                24%
               Physiatry                                                    693             4245                16%
               Internal Medicine                                            594             2742                22%
               Family Practice                                              461             2144                22%
               Orthopedic Surgery                                           211             1115                19%
               Podiatry                                                     163              550                30%
               Interventional Pain Management                               111              344                32%
               General Practice                                              82              229                36%
               Neurosurgery                                                  75              192                39%
               Physician Assistant                                           70              249                28%
               Physical Therapist in Private Practice                        68              134                51%
               Independent Diagnostic Testing Facility (IDTF)                67               86                45%
               Pain Management                                               61              150                41%
               Nurse Practitioner                                            59              266                22%
               Hand Surgery                                                  47              135                35%
               Anesthesiology                                                40              170                24%
               Cardiology                                                    37              206                18%
               Endocrinology                                                 37              180                21%
               Rheumatology                                                  36              284                13%
               Emergency Medicine                                            36              102                35%
               Nephrology                                                    31               68                46%
               General Surgery                                               22              111                20%
               Pediatric Medicine                                            21               42                50%
               Otolaryngology                                                20              354                 6%
               Psychiatry                                                    19               30                63%
               Diagnostic Radiology                                          18               46                39%
               Colorectal Surgery (formerly Proctology)                      16               92                17%
               Pulmonary Disease                                             16               45                36%
               Plastic and Reconstructive Surgery                            14               55                25%
               Osteopathic Manipulative Medicine                             11               30                37%
               Neuropsychiatry                                               11               18                61%
               Obstetrics/Gynecology                                          9               24                38%
               Gastroenterology                                               7               27                26%
               Hematology/Oncology                                            6               20                30%
               Urology                                                        5               17                29%
                                                                                             (continued on next page)




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            22
                   APPENDIX A (CONTINUED)
                   Number and Percentage of Medicare Physicians With
                   Questionable Billing for Electrodiagnostic Tests in Each
                   Specialty, 2011
                                                                                     Number of                       Percentage of
                                                                               Physicians With                     Physicians With
                                                                                 Questionable        Number of       Questionable
                                                                                Billing in Each    Physicians in    Billing in Each
                  Specialty                                                           Specialty   Each Specialty          Specialty
                  Infectious Disease                                                         5               12               42%
                  Vascular Surgery                                                           5               13               38%
                  Geriatric Medicine                                                         4               18               22%
                  Allergy/Immunology                                                         3                9               33%
                  Ophthalmology                                                              2                4               50%
                  Pathology                                                                  2                4               50%
                  Sports Medicine                                                            2                6               33%
                  Thoracic Surgery                                                           2                3               67%
                  Occupational Therapist in Private Practice                                 2                4               50%
                  Oral Surgery (Dentists Only)                                               1                3               33%
                  Nuclear Medicine                                                           1                1              100%
                  Single or Multispecialty Clinic or Group Practice                          1                4               25%
                  Peripheral Vascular Disease                                                1                1              100%
                  Addiction Medicine                                                         1                2               50%
                  Critical Care (Intensivists)                                               1                3               33%
                  Dermatology                                                                0                1                0%
                  Audiologist (Billing Independently)                                        0                4                0%
                  Clinical Laboratory (Billing Independently)                                0                2                0%
                  Preventive Medicine                                                        0                4                0%
                  Maxillofacial Surgery                                                      0                1                0%
                  Certified Clinical Nurse Specialist                                        0                2                0%
                  Medical Oncology                                                           0                2                0%
                  Surgical Oncology                                                          0                6                0%
                  Radiation Oncology                                                         0                1                0%
                  Interventional Radiology                                                   0                1                0%
                    Total                                                                 4,901          21,663               23%
              Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




               




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                        23
                        APPENDIX B
                        Number and Percentage of Medicare Physicians Who
                        Exceeded Thresholds of Questionable Billing for
                        Electrodiagnostic Tests by Specialty Group, 2011

                               Number of Measures for
                               Which Physicians Exceeded
                                                                                                       Percentage of
 Specialty Group               Thresholds of Questionable                      Number of Physicians
                                                                                                         Physicians
                               Billing for Electrodiagnostic
                               Tests
                               0                                                               8,903           79%
                               1                                                               2,078           18%
 Neurologists and
                               2                                                                 265            2%
 Physiatrists
                               3                                                                  46           <1%
                               4 or more                                                           0            0%
                                 Total*                                                       11,292          100%
                               0                                                               7,859           76%
                               1                                                               2,179           21%
 Physicians in Other           2                                                                 307            3%
 Specialties                   3                                                                  26           <1%
                               4 or more                                                           0            0%
                                 Total*                                                       10,371          100%
* The sums of the percentages in the final column does not equal total because of rounding.
Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




 Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                     24
                      APPENDIX C
                      Physicians With Unusually High Billing by Each Measure of
                      Questionable Billing, 2011
                      Table C-1. Neurologists and Physiatrists With Unusually High Billing by
                      Each Measure of Questionable Billing, 2011




                                                         Neurologists and Physiatrists With Unusually High Billing


                                                                                                                  Number of
                                                                                                                  Physicians
  Measure of Questionable                                                       Range of          Medicare        Exceeding
  Billing                                    Median        Threshold                Billing           Billing      Threshold
  High percentage of
                                                                                               $29.9 million              1,047
  electrodiagnostic test claims
  with modifiers
                                                     2%            48%      48% to 100% $29 million             1,000
                          Modifier 59
                                                     0%             0%       <1% to 12% $994,000                47
                        Modifier 25**
  High percentage of
  electrodiagnostic test claims
                                                --              --               --                 --                 --
  from all billing for Part B items
  and services*
  High percentage of
  electrodiagnostic test claims
  that did not include both an NCT
                                                     8%            61%      61% to 100%        $18.7 million                907
  and needle EMG test
  High average number of miles
  between physicians’ and
  beneficiaries’ locations                           116            321      321 to 2,961      $11.7 million                358
  High percentage of beneficiaries
  for whom at least three
  physicians billed Medicare for
  electrodiagnostic tests                            2%             7%       7% to 100%         $ 1.5 million               256
  High average number of
  electrodiagnostic test claims on
  the same beneficiary on the
  same day***                                          8             14           14 to 30     $15.9 million                181
        Total ****                                                                            $68.9 million               2,389
*Because some neurologists and physiatrists may reasonably bill for electrodiagnostic tests and have no other billing for Part
B items and services, we did not include neurologists and physiatrists in the analysis for this characteristic.
**The median and threshold are 0 percent for this characteristic because only 47 of 11,292 neurologists and physiatrists
used modifier 25 on at least 1 of their 2011 electrodiagnostic test claims. All 47 of these physicians were identified using the
Tukey method as having an unusually high percentage.
*** Under the Tukey method, an outlier is a number greater than the 75th percentile plus 1.5 times the interquartile range. For
this characteristic of questionable billing, the Tukey method yielded a threshold number of 13 tests. However, because
AANEM sets at 14 the maximum number of tests considered reasonable to make a diagnosis, we used a threshold of
14 tests.
****The sums of the columns do not equal totals because some neurologists and physiatrists had multiple measures of
questionable billing.
Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




 Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                               25
                      APPENDIX C (CONTINUED)
                      Physicians With Unusually High Billing by Each Measure of
                      Questionable Billing, 2011
                      Table C-2. Physicians in Other Specialties With Unusually High Billing by
                      Each Measure of Questionable Billing, 2011



                                                         Physicians in Other Specialties With Unusually High Billing


                                                                                                                     Number of
                                                                                                                     Physicians
                                                                                  Range of         Medicare          Exceeding
  Measure of Questionable Billing             Median        Threshold                 Billing         Billing         Threshold
  High percentage of
                                                                                                  $17 million                1,161
  electrodiagnostic test claims with
  modifiers
                                                    0%             42%       42% to 100% $17 million              1,156
                              Modifier 59
                                                    0%              0%         <1% to 25% $16,000                 5
                             Modifier 25*
  High percentage of
  electrodiagnostic test claims from
  all billing for Part B items and
                                                    1%             13%       13% to 100%       $60.7 million                 1,155
  services
  High percentage of
  electrodiagnostic test claims that
                                                                                   --                --                  --
  did not include both an NCT and
                                                   85%            100%
  needle EMG test **
  High average number of miles
  between physicians’ and
  beneficiaries’ locations                          111             335       335 to 2,541       $3.4 million                  342
  High percentage of beneficiaries
  for whom at least three physicians
  billed Medicare for
  electrodiagnostic tests                           6%             28%       28% to 100%         $1.3 million                   90
  High average number of
  electrodiagnostic test claims for
  the same beneficiary on the same
  day                                                 7              19             19 to 32     $4.1 million                  153
          Total ***                                                                           $69.9 million                  2,512
*The median and threshold are 0 percent for this characteristic because only 5 of 10,371 physicians with other specialties
used modifier 25 on their 2011 electrodiagnostic test claims. All five of these physicians were identified using the Tukey
method as having an unusually high percentage.
** The Tukey method requires a distribution or variability in billing to identify unusual behavior. Because there was no
distribution in billing for this measure of questionable billing among physicians in this specialty group (i.e., they almost always
billed for NCTs without needle EMGS), no physicians were identified as billing for unusually high percentages of NCTs
without needle EMGs.
*** The sums of the columns do not equal total because some physicians in other specialties had multiple questionable billing
characteristics.
Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




 Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                                  26
                     APPENDIX D
                     Metropolitan Areas With the Highest Number of Physicians
                     With Questionable Billing by Specialty Group, 2011
                                                     Number of                  Number of
                                              Neurologists and         Physicians in Other       Total Number of
                                               Physiatrists with          Specialties with       Physicians With
       Metropolitan Area                    Questionable Billing       Questionable Billing   Questionable Billing

       New York, NY                                           243                      494                    737

       Los Angeles, CA                                        114                      105                    219

       Miami, FL                                               75                      118                    193

       Houston, TX                                             62                       94                    156

       Dallas, TX                                              79                       30                    109

       Detroit, MI                                             44                       54                     98

       Chicago, IL                                             57                       40                     97

       Washington, DC                                          47                       49                     96

       Phoenix, AZ                                             45                       46                     91

       Baltimore, MD                                           41                       46                     87
         Total                                                807                    1,076                  1,883

         Nation                                             2,387                    2,514                  4,901
      Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                    27
                    APPENDIX E
                    Geographical Areas of Physicians With Three Measures of
                    Questionable Billing, 2011

                                                                                Number of        Percentage of
                                                                         Physicians With      Physicians With
                                                                        Multiple Measures    Multiple Measures
                                                       Questionable      of Questionable      of Questionable
Geographical Area                                    Medicare Billing              Billing              Billing

Las Vegas-Paradise, NV                                      $420,083                    8              11.11%
                                                                                                        8.33%
New York-Northern New Jersey-Long Island, NY-NJ-PA          $351,020                    6
                                                                                                         6.94%
Baltimore-Towson, MD                                        $108,039                    5
                                                                                                         5.55%
Miami-Fort Lauderdale-Pompano Beach, FL                      $34,258                    4
                                                                                                         4.17%
Boston-Cambridge-Quincy, MA-NH                               $95,361                    3
                                                                                                         4.17%
Fort Collins-Loveland, CO                                    $53,441                    3
                                                                                                         4.17%
Phoenix-Mesa-Glendale, AZ                                     $3,439                    3
                                                                                                         2.78%
Denver-Aurora-Broomfield, CO                                $406,247                    2
                                                                                                         2.78%
Oxnard-Thousand Oaks-Ventura, CA                            $192,849                    2
                                                                                                         2.78%
Jamestown-Dunkirk-Fredonia, NY                               $43,838                    2
                                                                                                         2.78%
Detroit-Warren-Livonia, MI                                   $32,639                    2
                                                                                                         2.78%
Los Angeles-Long Beach-Santa Ana, CA                         $16,150                    2
                                                                                                         2.78%
San Diego-Carlsbad-San Marcos, CA                            $11,482                    2
                                                                                                         2.78%
Houston-Sugar Land-Baytown, TX                                $9,451                    2
                                                                                                         1.39%
Cape Coral-Fort Myers, FL                                   $698,550                    1
                                                                                                         1.39%
Dallas-Fort Worth-Arlington, TX                             $548,708                    1
                                                                                                         1.39%
New Orleans-Metairie-Kenner, LA                             $350,562                    1
                                                                                                         1.39%
Lansing-East Lansing, MI                                    $142,734                    1
                                                                                                         1.39%
Washington-Arlington-Alexandria, DC-VA-MD-WV                $136,775                    1
                                                                                                         1.39%
Hagerstown-Martinsburg, MD-WV                                $54,710                    1
                                                                                                         1.39%
Anchorage, AK                                                $32,034                    1
                                                                                                         1.39%
St. Louis, MO-IL                                             $29,132                    1
                                                                                                         1.39%
Austin-Round Rock-San Marcos, TX                             $28,814                    1
                                                                                                         1.39%
Trenton-Ewing, NJ                                            $25,832                    1
                                                                                                         1.39%
Topeka, KS                                                   $23,470                    1
                                                                                                         1.39%
Nashville-Davidson--Murfreesboro-Franklin, TN                $21,965                    1
                                                                                                         1.39%
New Haven-Milford, CT                                        $18,538                    1
                                                                                       (continued on next page)




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                 28
                    APPENDIX E (CONTINUED)
                    Geographical Areas of Physicians With Three Measures of
                    Questionable Billing, 2011
                                                                                      Number of          Percentage of
                                                                               Physicians With        Physicians With
                                                                              Multiple Measures      Multiple Measures
                                                           Questionable        of Questionable        of Questionable
Geographical Area                                        Medicare Billing                Billing                Billing
                                                                                                                 1.39%
Louisville-Jefferson County, KY                                   $12,007                       1
                                                                                                                 1.39%
Lake Havasu City-Kingman, AZ                                      $11,969                       1
                                                                                                                 1.39%
Toledo, OH                                                         $9,504                       1
                                                                                                                 1.39%
Flint, MI                                                          $6,793                       1
                                                                                                                 1.39%
McAllen-Edinburg-Mission, TX                                       $3,766                       1
                                                                                                                 1.39%
Chicago-Naperville-Joliet, IL-IN-WI                                $2,508                       1
                                                                                                                 1.39%
San Juan-Caguas-Guaynabo, PR                                       $1,718                       1
                                                                                                                 1.39%
Bloomsburg-Berwick, PA                                             $1,062                       1
                                                                                                                 1.39%
Minneapolis-St. Paul-Bloomington, MN-WI                              $854                       1
                                                                                                                 1.39%
San Angelo, TX                                                       $534                       1
                                                                                                                 1.39%
Somerset, PA                                                         $448                       1
                                                                                                                 1.39%
Brownsville-Harlingen, TX                                            $430                       1
                                                                                                                 1.39%
Rural                                                             $88,485                       1

Total*                                                           $4 million                     72               100%
*The sum of the percentages in the final column does not equal the total because of rounding.
Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                         29
                 APPENDIX F
                 Geographical Areas of Top 10 Physicians With Questionable
                 Billing, 2011
                                                                                             Questionable
                  Physician                                                                     Medicare
                  Number             Geographical Area                                             Billing
                  Physician 1        Los Angeles-Long Beach-Santa Ana, CA                      $3,103,642

                  Physician 2        Miami-Fort Lauderdale-Pompano Beach, FL                     $900,513

                  Physician 3        New York-Northern New Jersey-Long Island, NY-NJ-PA          $769,644

                  Physician 4        Brownwood, TX                                               $732,342

                  Physician 5        Cape Coral-Fort Myers, FL                                   $698,550

                  Physician 6        Los Angeles-Long Beach-Santa Ana, CA                        $690,872

                  Physician 7        New York-Northern New Jersey-Long Island, NY-NJ-PA          $597,269

                  Physician 8        Bakersfield-Delano, CA                                      $576,119

                  Physician 9        Detroit-Warren-Livonia, MI                                  $564,589

                  Physician 10      New York-Northern New Jersey-Long Island, NY-NJ-PA           $558,112
                 Source: OIG analysis of physician data for electrodiagnostic tests, 2011.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                            30
                 APPENDIX G
                 Agency Comments




                  (,j.
                   /<,J.IJ.VIC(J'\


                                     DEPARTMENT OF IlEALTil & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                                                               Administrator
                                                                                                               Washington. DC 20201




                                     DATE:           MAR 11l~l~
                                     TO: 	          Daniel R. Levinson 

                                                    Inspector General 

                                                                           /S/
                                     FROM: 	        Murilyn 1ia".enner 

                                                    AdmirtlstMtot 


                                     SUBJECT: 	 Office of the Inspector General (OIG) Draft Report: "Questionable Billingfor
                                                Medicare Electrodiagnostic Tests" (OEI-04·12-00420)


                                     The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                                     comment on the above-mentioned OIG report. In 2011, Medicare paid approximately $486
                                     million to 21,700 physicians for electrodiagnostic tests billed on behalf of 877,000 beneficiaries.
                                     Electrodiagnostic tests arc used to evaluate patients who may have nerve damage. Recent
                                     investigations have found that electrodiagnostic testing is an area vulnerable to fraud, waste and
                                     abuse. CMS issues comparative billing reports to providers for a variety of services, including
                                     electrodiagnostic testing. Such reports are intended to proactively educate providers and identify
                                     and correct errors in their billing.

                                     The OIG developed seven measures of questionable billing on the basis of past OIG work and
                                     input from CMS staff. OIG analyzed Medicare 20 II electrodiagnostic test claims to identify
                                     physicians who had unusually high billing for at least one of these measures. 010 also
                                     determined whether physicians with questionable billing received comparative billing reports in
                                     20 II for electrodiagnostic testing. In addition, OIG identified the geographic areas with the
                                     largest amounts of questionable billing.

                                     The OIG found that in 20 II, 4,90 I physicians had questionable billing for Medicare
                                     electrodiagnostic tests totaling, $139 million. OIG also found that approximately 20 percent of
                                     these physicians received comparative billing reports, on the basis oftheir 20 I0 billing for
                                     electrodiagnostic tests. In addition, physicians in the New York, Los Angeles, and Houston
                                     areas had the largest total questionable billing for Medicare electrodiagnostic tests in 20 II.

                                     The 01 G' s recommendations and CMS responses to those recommendations are discussed
                                     below.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                                                                               31
Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)   32
Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)   33
Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)   34
                 ACKNOWLEDGMENTS
                 This report was prepared under the direction of Dwayne Grant, Regional
                 Inspector General for Evaluation and Inspections in the Atlanta regional
                 office, and Jaime Durley, Deputy Regional Inspector General.
                 Latrice Rollins served as lead analyst. Central office staff who provided
                 support include Scott Horning, Althea Hosein, Kevin Manley, Christine
                 Moritz, and Mandy Walz.




Questionable Billing for Medicare Electrodiagnostic Tests (OEI-04-12-00420)                  35
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
